July 16, 2010

SUSAN M. PLONKEY
ACTING PRESIDENT, MAILING AND SHIPPING SERVICES

SUBJECT: Audit Report – Fiscal Year 2009 Standard Mail Volume Incentive
         Program (Report Number FF-AR-10-196)

This report presents the results of our audit of the fiscal year (FY) 2009 Standard Mail®
Volume Incentive Program (Project Number 10BO008FF000). The report responds to a
request from the Postal Regulatory Commission (PRC). Our objectives were to evaluate
the Standard Mail Volume Incentive Program (Summer Sale) to determine whether the
Postal Service achieved its objective of increasing volume and revenue and whether the
process used to establish customers’ mailing history was valid and accurate. This audit
addresses financial risk. See Appendix A for additional information about this audit.

The U.S. Postal Service intended its Summer Sale to increase volume during a typically
light mail volume period and increase revenue. The program ran from July 1 through
September 30, 2009. At the end of this period, the Summer Sale provided a 30 percent
credit to customers for additional volume mailed over a specified threshold.

Conclusion

The Postal Service reported both volume and revenue increases resulting from the
FY 2009 Summer Sale.1 However, the processes used to calculate the reported
increases may result in misleading reported revenue and volume impacts. While the
Postal Service used actual, verifiable mailing data in many cases, the additional data
essential to calculations supporting the reported increases is less precise. These data
included various assumptions related to mail thresholds,2 negotiated mail volumes
based on customer input, and incomplete or unconsidered employee cost data. Postal
Service outsiders — including the PRC’s public representatives3 — have also
questioned the Postal Service’s methods for calculating reported revenue and volume
increases. The public representatives found that using methods more closely aligned

1
  The Postal Service reported that its FY 2009 Summer Sale increased net revenue by $24.1 million in its report to
the Postal Regulatory Commission, FY 2009 Summer Sale Data Collection Report, Docket Number R2009-3,
February 26, 2010.
2
  Volume of mail a customer must send before being eligible for a rebate. The threshold volume is determined using a
formula based on volume amounts for standard mail that customers mailed from October 2008 through March 2009
compared to what they mailed from October 2007 through March 2008.
3
  Comments of the public representatives, Docket No. R2010-3, March 22, 2010 signed by three representatives.
Fiscal Year 2009 Standard Mail Volume                                                           FF-AR-10-196
 Incentive Program


with those initially considered by the PRC in approving the Summer Sale suggests the
Postal Service may actually have lost money on the FY 2009 program.

A Postal Service official stated that the benefits gained from conducting incentive
programs like the Summer Sale outweigh their potential financial uncertainties. The
official said the Summer Sale program should be viewed as an investment in the future
of the Postal Service, creating long-term customer satisfaction and building its
reputation. While these goals are commendable, a stated objective of the FY 2009
Summer Sale was to increase revenue and volume. It is uncertain whether the Postal
Service achieved that objective. We believe the Postal Service needs solid data and
complete cost information in order to make well-informed decisions on the programs it
initiates or conducts, particularly considering the critical financial predicament it is
currently facing.

Revenue and Volume Increases Reported for Summer Sale May be Misleading

Overall, the Postal Service did not always have independent, reliable, and complete
data upon which to calculate the $24.1 million in net revenue contribution and increased
volume resulting from the FY 2009 Summer Sale. This occurred because the Postal
Service relied on certain customer-provided data to determine customer thresholds and
this data was a key component in evaluating revenue and volume increases. In addition,
the method the Postal Service used to determine customer mail volume without a
Summer Sale — commonly referred to as “loyalty growth” — differs from the PRC-
approved method.4 The Postal Service’s calculation of “loyalty growth” considered
trends in volume, whereas the PRC’s public representatives applied a measure of price
sensitivity to volumes actually mailed during the Summer Sale to calculate “loyalty
growth.” As a result, the Postal Service provided $67.8 million in rebates to customers
who exceeded the established threshold volumes5 that may have been inaccurate. We
consider the $67.8 million to be assets at risk. See Appendix B for a breakdown of the
monetary impact.

A key component in calculating net revenue and volume increases was determining
customers’ mail volume thresholds. To determine thresholds, the Postal Service
provided mailing data that established a threshold for all its customers who were eligible
to participate in the Summer Sale. While 324 customers agreed with this threshold
figure, 129 others did not. Customers who disagreed with the threshold met with a
Postal Service analyst from the Business Customer Intelligence (BCI) Department to



4
  According to a Postal Service official, determining “loyalty growth” is an exercise that uses historical customer data
and program rules in which a reasonable set of assumptions is made on what mail volume will be. On the other hand,
the public representative’s report states that using this method for estimating “loyalty growth” as approved by the
PRC (which is different from what the Postal Service uses) produces a considerable loss.
5
  To establish threshold volumes, the Postal Service used a formula to determine a number based on volume
amounts for standard mail that customers mailed during October 2008 through March 2009 compared to what the
customers mailed from October 2007 through March 2008.




                                                           2
Fiscal Year 2009 Standard Mail Volume                                                      FF-AR-10-196
 Incentive Program


discuss and negotiate the changes.6 Postal Service officials stated that BCI analysts
researched the requested changes; however, they were not able to provide
documentation to support the changes made or the validation process.

When determining threshold figures, customers requested that the Postal Service:

       Remove and/or add accounts that were incorrectly included (or omitted) in its
        data.

       Add volume from mail service providers (MSPs)7 for customers who used this
        method of entering mail. In some instances, volume of this type is not visible or
        transparent through the current system the Postal Service uses.

       Separate or consolidate accounts for customers with numerous departments or
        subsidiaries. This information was not identifiable in the Postal Service data.

Determining customer threshold figures presented challenges to both the Postal Service
and customers participating in the Summer Sale program.

       One customer stated that mail volume figures the Postal Service presented
        during the negotiation process were “close enough.”

       While working with a customer disputing his threshold, a Postal Service BCI
        analyst explained that mail volumes MSPs entered were not accessible through
        Postal Service systems, so the customer needed to obtain those amounts from
        the mail preparer. Data on individual customer mail volume is not available
        through Postal Service systems when MSPs combine mailings from multiple
        customers or submit mailings using their own accounts rather than using the
        individual mailer’s account.

Another key component in calculating revenue and volume increases was the mail that
customers would have sent if there were no sale, commonly called “loyalty growth.” The
Postal Service used “loyalty growth” in the formula to calculate overall volume
increases, estimating that customers would have sent 38 percent of the volume
qualifying for reduced Summer Sale rates without the incentive. This calculation was not
a precise figure, but rather one based on a series of assumptions. Further complicating
the calculation was the fact that the Postal Service had seen declines in mail volume
due to the United States’ economic recession. At the time of the FY 2009 Summer Sale,
some customer volume had begun to rebound.


6
  BCI analysts work with customers to resolve permit account and mail volume disputes. The BCI staff has the
authority, as part of the Summer Sale process, to make adjustments that will result in an agreement with the
customer.
7
  Companies that prepare and enter mail for customers using the customers’ accounts and/or entering mail using
MSP accounts.




                                                        3
Fiscal Year 2009 Standard Mail Volume                                                         FF-AR-10-196
 Incentive Program


Furthermore, Postal Service outsiders have questioned the validity of the calculation of
the “loyalty growth.” The PRC’s public representatives8 found that using the PRC’s
method for “loyalty growth,” the Summer Sale lost $39.6 million of revenue. This is in
contrast to the Postal Service’s reported $24.1 million net revenue growth. These
varying calculations illustrate the difficulty in determining the results and effect of the
Summer Sale.

Some Expenses Not Tracked

The Postal Service did not include all expenses associated with employees who worked
on the FY 2009 Summer Sale project, primarily because they did not have a process in
place to track those employees’ work hours. The Postal Service attributed $530,0009 to
the cost of having six full-time and 10 part-time employees working on the project for
4 months. However, the actual amount of time these employees spent on the project far
exceeded those estimates. Specifically, the full-time employees began working on the
project in April 2009 and were still resolving issues as of March 2010 — 8 months
longer than anticipated. We also found that the Postal Service used 11 more part-time
employees to work on the project than it initially planned. Some of the additional
employees estimated they spent from 1 to 8 hours per day working with customers.
Others estimated they spent up to 200 hours working on the project.

We recommend the acting president, Mailing and Shipping Services:

1. Develop a process to obtain accurate and verifiable customer mailing data that
   dependably measures and reports on the effect of future customer incentive
   programs designed to increase volume and improve revenue.

2. Develop a method to track the time employees spend working on projects so
   management can document and report accurate administrative costs.

Management’s Comments

Management generally agreed with the findings and recommendations but did not feel
the report reflected the intangible benefits of the Summer Sale. Those benefits included
promoting customer business, retaining customers, and rewarding loyal customers.
Management also expressed a concern regarding the $67.8 million revenue at risk, and
reiterated the differing methods for calculating “loyalty growth.” Management stated they
will be participating in the PRC’s rulemaking proceeding regarding “loyalty growth” and
will reflect conclusions in future analyses as appropriate.




8
  PRC officers designated to represent the interests of the public in proceedings that come before the PRC.
9
  The Postal Service’s dedicated personnel accounted for 54 percent of the total administrative costs associated with
the Summer Sale.




                                                          4
Fiscal Year 2009 Standard Mail Volume                                                 FF-AR-10-196
 Incentive Program


Having learned lessons from the 2009 Summer Sale, management stated they
implemented processes in June 201010 to better document changes made to customer
permit configurations and to lessen reliance on customer data. Management is also
developing a tiered technology enhancement, which will provide more accurate
customer data. The estimated implementation date for phase 1 of the enhancement is
Quarter 3, FY 2011.10 Further, management implemented a process in June 201010 that
will track employee and contractor costs for the 2010 Summer Sale. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. We recognize and agree that there are
intangible benefits that can be realized from incentive sales and have noted these in our
report. Regarding the reported revenue at risk, while the Postal Service expressed a
concern over the $67.8 million revenue amount, they did not present a basis for their
disagreement or different methodologies for calculating the revenue at risk. We consider
the calculated amount of $67.8 million revenue at risk as valid.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial – Central, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Thomas J. Foti
    Mary E. Savino
    Corporate Audit and Response Management




10
     Management informed us of this date subsequent to our receipt of the comments.




                                                          5
Fiscal Year 2009 Standard Mail Volume                                   FF-AR-10-196
 Incentive Program


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The FY 2009 Summer Sale program ran from July 1 through September 30, 2009. The
Postal Service intended the program to increase mail volume during a typically light mail
volume period and increase revenue. Participation in the Summer Sale required the
Postal Service and its customers to determine and agree upon a threshold volume.4
Additionally, to be eligible for the FY 2009 Summer Sale, participating customers must
have been:

      Permit holders/owners of a permit imprint advance deposit account(s).

      Able to demonstrate a volume of at least one million Standard Mail letters and
       flats between October 1, 2007, and March 31, 2008, for one or more permit
       imprint advance deposit account(s), precanceled stamp permit(s) or postage
       meter permit(s).

      Qualified for the program with volume mailed through an account(s) owned by a
       mail service provider, but only with adequate documentation specifying the
       applicant is the owner of the mail.

At the end of the sale period, the Summer Sale program provided a 30 percent rebate
for qualifying customers for the average per-piece price of the incremental volume of
Standard Mail letters and flats over a specified threshold recorded during the
established program period.

Chart 1 illustrates the breakdown of customers registered for participation in the FY
2009 Summer Sale and those who ultimately participated and received rebates.




                                            6
Fiscal Year 2009 Standard Mail Volume                                     FF-AR-10-196
 Incentive Program



                                          Chart 1




OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate the Summer Sale to determine whether the Postal
Service achieved its objective to increase mail volume and revenue and whether the
process used to establish the customers’ mailing history was valid and accurate.

We traced recorded financial transactions to and from supporting documentation; and
used Postal Service instructions, manuals, policies, and procedures as criteria to
evaluate internal controls and data reliability. We interviewed sales analysts and other
headquarters personnel assigned to the program. Of the 453 customers receiving
rebates, we judgmentally selected 14 and reviewed supporting documentation related to
mail volume and rebates. We did not review additional customer documentation to
validate mail volume. To do so would have been time-consuming and complex – for us
as well as for the Postal Service – with little likelihood of producing different results. We
reviewed all requisitions and invoices related to the administrative costs of the program.

To assess the reliability of the data elements needed to answer the objectives, we
(1) electronically verified relevant calculations, (2) reviewed related documentation, and
(3) interviewed agency officials knowledgeable about the data. The results of our audit
showed that key data elements were not completely independent, verifiable, and
reliable, as disclosed in our report.

We conducted this performance audit from November 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our



                                              7
Fiscal Year 2009 Standard Mail Volume                                                        FF-AR-10-196
 Incentive Program


observations and conclusions with management officials on May 27, 2010, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.
In a recent report, the Government Accountability Office (GAO) noted that the FY 2009
Summer Sale had little effect on the Postal Service’s overall financial results for the
fiscal year.11




11
  The GAO Report, U.S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability
(Report Number 10-455, dated April 12, 2010).




                                                         8
Fiscal Year 2009 Standard Mail Volume                                                       FF-AR-10-196
 Incentive Program


                              APPENDIX B: NONMONETARY IMPACT


               Finding                      Impact Category                               Amount
                  1                Assets at Risk12                                      $67.8 million




12
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         9
Fiscal Year 2009 Standard Mail Volume                      FF-AR-10-196
 Incentive Program



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                        10
Fiscal Year 2009 Standard Mail Volume        FF-AR-10-196
 Incentive Program




                                        11
Fiscal Year 2009 Standard Mail Volume        FF-AR-10-196
 Incentive Program




                                        12
Fiscal Year 2009 Standard Mail Volume        FF-AR-10-196
 Incentive Program




                                        13
